January 23, 2006


The President
The White House
Washington, DC 20500

Dear Mr. President:

I am writing to submit my resignation as Inspector General of the U.S. Department of
Transportation, effective February 11, 2006. I have held this position since 1997, which is a
substantial tenure for an Inspector General at a cabinet-level agency. It has been a great honor to
serve during your Administration and that of former President Clinton. The opportunities to see
positive outcomes and results for the traveling public and taxpayer have been enormously
satisfying. I want to pay special tribute to the fine men and women of the Inspector General staff
as well as Secretary Mineta and his leadership team.

Each day I reflect on what a privilege it is to be a part of the achievements of the very capable and
dedicated Inspector General staff. This staff has a steady moral compass and I will always
remember this as a model in my future endeavors. They are determined in their pursuit of safer,
more secure and efficient transportation programs and zealous in protecting the taxpayers’ interests
in preventing fraud, waste, or abuse and in attacking it when it occurs. Their contributions are
exceptional and worth many times over the investment the Congress and Administration make in
this critical oversight function.

I also wish to express the deepest of appreciation and respect for Secretary Norman Mineta and
former Secretary Rodney Slater and their leadership teams for their support and responsiveness on
every front. From several standpoints, the last five years in particular have been tumultuous ones
for transportation and I believe our country was most fortunate to have Secretary Mineta at the
helm, especially on 9/11 and the period thereafter. I also am most appreciative of the support of
Congress during my tenure, in the House and Senate, Republicans and Democrats alike.

The Inspector General mission is best served by the preservation of Inspector General
independence in auditing, evaluating, and in conducting criminal investigations, but it is important
to maintain a focus on preventing problems from occurring in the first place and, when they do
occur, work with the Secretary and his team, and frequently the Congress, to constructively devise
and implement a solution. This is what the traveling public and general taxpayer expect. I salute
the Secretary as well as my staff for ensuring that such an environment exists at the U.S.
Department of Transportation. Congress has reinforced this as well. To take on the challenges that
today face the transportation community as well as those that lay ahead, this environment will need
to continue.

Thank you for the opportunity to serve.

Respectfully submitted,



Kenneth M. Mead
Inspector General
